                                                             Office of Inspector General


   DEPARTMENT OF HOMELAND SECURITY                           U.S. Department of
                                                             Homeland Security
                                                             Washington, DC 20528


          Office of Inspector General


      Information Technology Management 

              Letter for the FY 2007 

    Federal Law Enforcement Training Center 

            Financial Statement Audit 

                               (Redacted) 





   Notice: The Department of Homeland Security, Office of Inspector General
   has redacted the report for public release. A review under the Freedom of
   Information Act will be conducted upon request.




OIG-08-70                                                   June 2008
                                                                                         Appendix B

                         Federal Law Enforcement Training Center
                          Information Technology Management Letter
                                     September 30, 2007

 NFR #                 Condition                            Recommendation                   Risk Rating
                                                Finalize and implement the “FM 4300: IT
                                                System Security Program and Policy,”
                                                which provides policies for the use of
                                                                  .

           Policies and Procedures over         Finalize and implement the
FLETC-
                              Are Not           hardening guide and hardening SOP.            Medium
IT-07-16
           Developed
                                                Conduct a security inspection of the
                                                                   installations by
                                                completing the FLETC          Security
                                                Checklist.

                                                Perform timely background checks on all
                                                new and existing contractors and ensure
                                                that supporting documentation be
                                                maintained.
           Background Investigations for
FLETC-
           Contractors are Not Consistently                                                   Medium
IT-07-17                                        Document the status of ongoing and
           Performed
                                                completed background checks in a central
                                                repository with critical details about the
                                                investigation documented.

                                                Finalize and implement FM 4300: IT
                                                System Security Program and Policy,
                                                which provides policies for the review of
                                                audit logs.

                                                Continue with the projected plan for
FLETC-                             Audit Logs
                                                decommissioning the                             Low
IT-07-18   Need Improvement
                                                         application and ensure that audit
                                                logs are maintained to capture actual or
                                                attempted unauthorized, unusual or
                                                sensitive application or operating system
                                                level access to

                                                This NFR was issued without a
                       Password
FLETC-                                          recommendation as it was remediated
           Configurations Need                                                                  Low
IT-07-19                                        during the audit period.
           Improvement




                                        19
 Information Technology Management Letter for the FY 2007 FLETC Financial Statement 

                                      Audit 

                                                                          Appendix D

                     Federal Law Enforcement Training Center
                      Information Technology Management Letter
                                 September 30, 2007




                                       28
Information Technology Management Letter for the FY 2007 FLETC Financial Statement 

                                     Audit

                                                                          Appendix D

                     Federal Law Enforcement Training Center
                      Information Technology Management Letter
                                 September 30, 2007




                                       29
Information Technology Management Letter for the FY 2007 FLETC Financial Statement 

                                     Audit

                                                                          Appendix D

                     Federal Law Enforcement Training Center
                      Information Technology Management Letter
                                 September 30, 2007




                                       30
Information Technology Management Letter for the FY 2007 FLETC Financial Statement 

                                     Audit

                                                                          Appendix D

                     Federal Law Enforcement Training Center
                      Information Technology Management Letter
                                 September 30, 2007




                                       31
Information Technology Management Letter for the FY 2007 FLETC Financial Statement 

                                     Audit

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
